<html>
<title> - TRIBAL LOBBYING MATTERS</title>
<body><pre>[Senate Hearing 109-135]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 109-135, Pt. 3
 
                        TRIBAL LOBBYING MATTERS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

       OVERSIGHT HEARING REGARDING TRIBAL LOBBYING MATTERS, ET AL

                               __________

                           NOVEMBER 17, 2005
                             WASHINGTON, DC

                               __________

                                 PART 3

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-704                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     2
    Federici, Italia, president, Council of Republican for 
      Environmental Advocacy.....................................     4
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
Additional material submitted for the record:
    Additional e-mails...........................................    51


                        TRIBAL LOBBYING MATTERS

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
216, Senate Hart Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain, Dorgan, and Inouye.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning.
    As part of its investigation on Indian lobbying misconduct, 
the committee has tried to follow the money, in particular 
money that Jack Abramoff had his tribal clients pay various 
entities. Among the entities that Mr. Abramoff had his clients 
pay was a sizable sum to was an organization called the Council 
of Republicans for Environmental Advocacy, commonly known as 
the CREA.
    We have with us here today Italia Federici, the president 
of the CREA. Evidence in the committee's possession shows that 
Mr. Abramoff directed at least four of his tribal clients to 
contribute no less than $250,000 to the CREA from 2001 through 
2003. In total, Mr. Abramoff may have had his clients 
contribute as much as $400,000 to the CREA. The question is 
why. Documents suggest that Mr. Abramoff was having his tribal 
clients pay so much because he perceived that Ms. Federici 
would help him get inside information about and possibly 
influence tribal issues pending at Interior.
    In connection with the contribution of the CREA from at 
least one of his tribal clients, Mr. Abramoff described the 
CREA as ``the Secretary's main group outside of the 
department,'' and according to internal business communications 
between Mr. Abramoff and his associates, Mr. Abramoff believed 
that Ms. Federici had ``juice'' at Interior and deemed her 
``critical'' to his tribal lobbying practice.
    As I stated at the last hearing, there is no evidence that 
Secretary Norton knew, much less sanctioned, Mr. Abramoff or 
anyone else using her name in seeking fees and donations from 
Native Americans. What we do know is that Mr. Abramoff directed 
his clients to pay hundreds of thousands of dollars to the 
CREA, clients upon whom he relied for millions of dollars in 
Federal lobbying revenue to Greenberg Traurig for his secret 
``gimme five'' partnership income through Michael Scanlon for 
contributions to run his Jewish boys school in Maryland, and 
for personal income to float his restaurants.
    Why did Mr. Abramoff direct his valued clients to 
contribute so much to the CREA, unless it somehow served his 
purpose? What role did the CREA or Ms. Federici have in 
facilitating contacts between Mr. Abramoff and Interior 
officials about pending tribal issues? Did Ms. Federici in fact 
have ``juice'' at Interior, or did she only say that to have 
Mr. Abramoff's clients induced into donating hundreds of 
thousands of dollars to her organization, CREA?
    As we sit here today, we do not know the answers to these 
questions. I hope Ms. Federici's testimony today, coupled with 
the testimony we received at the last hearing and the documents 
the committee has released, will begin to illuminate this 
important part of the puzzle. I ask for unanimous consent that 
all documents and information that the vice chairman and I have 
agreed should be made a part of today's hearing be made.
    Senator Dorgan. Without objection.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much.
    This will be the last hearing of this committee on this 
subject during this calendar year at least, and I wanted to 
make a couple of comments about not only this hearing, but 
future activities dealing with these investigations.
    First of all, this inquiry would not exist without, Mr. 
Chairman, your determination to find out what has happened here 
and whether Indian tribes have been defrauded, who has been 
involved. And you have launched this investigation. We on the 
minority side have worked closely with you, and I admire very 
much the tenacity with which you have been willing to have this 
committee to investigate. I think it is very important.
    We have uncovered almost unbelievable things here, and we 
have uncovered activities that are pretty disgusting, some 
perhaps criminal, and many unethical. I think that from these 
hearings will come a series of ideas for changes and reform and 
so on. But I did want to say that this would not have happened 
without your launching this investigation.
    We have had a number of hearings that have investigated in 
a stovepipe fashion. How, tribe by tribe, money was moved 
through Mr. Abramoff and Mr. Scanlon and through other groups 
as well. It was an appropriate way to proceed. There is one 
additional tribe that we have not considered, Pueblo Sandia 
Tribe. I believe we should consider them and I have made such a 
recommendation.
    I believe $2.7 million was provided in two checks by the 
Pueblo Sandia Tribe to Mr. Scanlon's company, capital campaign. 
It is my hope that as we proceed that we will take a look at 
what the purpose of that money was, where that money went, and 
so on. That is very important because that is another part of 
this. In fact, the Pueblo Sandia was a tribe that was 
originally discussed as the committee began its investigation.
    Second, Mr. Chairman, we do not at this point have a 
schedule for a future hearing. It is my hope that we will have 
a future hearing on this investigation. I believe there are 
some witnesses, which I have visited with you about, who have 
not yet been interviewed by our investigators. I should not say 
``witnesses.'' There are a list of people who have not been 
interviewed by our investigators who I believe should be 
interviewed by our investigators. From those interviews, I 
believe we should make a decision on a future hearing.
    The question of a future hearing would depend on what we 
learn from witnesses, but there are those, or I should say 
``persons'' once again, there are those whose names show up in 
many, many places in all four of these tribes that we have so 
far looked at and I believe there are a group of people that 
really need to be interviewed by our investigators and I have 
made such a recommendation.
    Following that, I think we should decide from what we learn 
in those future interviews by our investigators, the nature of 
or the determination of whether we should have a future 
hearing. It is my belief that we will need another hearing with 
additional witnesses.
    Finally, Mr. Chairman, we have received, as you know, the 
letter from the Finance Committee asking for all of the 
information that we have gleaned on 501(c)(3) and (c)(4) 
organizations through which we have learned substantial money 
has moved, in most cases it appears for the purpose of 
obscuring the identity of such money. A substantial amount of 
money has moved through a number of organizations that are so-
called non-profits, (c)(3)s and (c)(4)s. The request from the 
Finance Committee to further investigate requests us to provide 
all relevant information that we have gleaned through subpoenas 
on the potential use and misuse of these 501(c)(3) and (c)(4) 
organizations.
    We are in the process with our staffs of putting this 
information together and to transmit that at some future point 
to the Finance Committee. We will need to make a decision on 
the disclosure of that information. As I have indicated to you, 
my hope is that we will put it on a website and disclose it to 
the public, as we disclose it to the Senate Finance Committee, 
while we meet their request.
    One significant part of this investigation, Mr. Chairman, 
that has caused me some real concern is the misuse of tax-
exempt organizations, non-profit organizations. We will talk a 
little about that today, in fact, with the organization that is 
going to be discussed through the witness, Italia Federici. I 
really believe that there seems to be, at least it is apparent 
to me, that there seems to be substantial misuse of these 
organizations.
    It is appropriate that the Finance Committee has asked for 
all of that information with which to continue an 
investigation. My hope is that as we transmit that information, 
that we will be able to make that public.
    Having said all of that, Mr. Chairman, this hearing occurs 
because we were not able to serve a subpoena on Ms. Federici 
prior to the previous hearing. We had a witness list for the 
previous hearing and Ms. Federici was on the witness list. My 
understanding is that those who were trying to serve a subpoena 
on this witness were unable to do so.
    So you indicated at that hearing we would have a separate 
hearing. She would be the sole witness, and that is the 
occasion that brings us together today. I am guessing that 
neither of us would prefer to be here. We would have preferred 
that she had accepted the subpoena and come to the previous 
hearing, but that was not the case so today we will ask 
questions and inquire about the specifics of something called 
CREA, the tribal money that flowed through CREA, the issue of 
whether there was influence-peddling or the circumstances of 
relationships with people in the Department of the Interior, 
and try to evaluate what this means.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you very much, Senator Dorgan. It has 
been a great privilege for me to serve on this committee for a 
long time, and with you. The reason why we have the title of 
chairman and vice chairman is because of our commitment that we 
have always adhered to of conducting our business here in a 
nonpartisan fashion. I appreciate all of the very cooperative 
work that we have enjoyed together.
    On the issue of the Pueblo Sandia, I agree with you. I will 
ask our investigators to look into it. Our staffs will be 
working together in preparation of a report. I think it is 
important to make clear that if there are other allegations of 
mistreatment of Native Americans, it is our obligation to 
continue to conduct our oversight responsibilities. So I 
continue to appreciate the way that we have worked together for 
many years and I believe that one of the reasons why these 
hearings have been as productive as they have is because of the 
partnership that we have maintained.
    Ms. Federici, I don't very often ask for a witness to be 
sworn in, but given your published statements about this 
committee and the things that you have said and done, I am 
going to ask you to stand and raise your right hand.
    [Witness sworn.]
    The Chairman. Thank you very much.
    Ms. Federici. Senator, I would like to just correct your 
statement. I have never made any untoward public statements 
about this committee.
    The Chairman. Excuse me, in your deposition, statements 
that you made about me personally, and I will be glad to quote 
from your deposition if you would like.
    Ms. Federici. You may do that.
    The Chairman. Now, if you would like to make an opening 
statement, please go ahead.

STATEMENT OF ITALIA FEDERICI, PRESIDENT, COUNCIL OF REPUBLICANS 
                   FOR ENVIRONMENTAL ADVOCACY

    Ms. Federici. Okay. Well, I had not prepared an opening 
statement. I came here to answer the committee's questions. My 
organization, the Council of Republicans for Environmental 
Advocacy, has existed since 1997, long before we ever met Jack 
Abramoff.
    And I have read with great interest about some of the 
accusations of moving money or money laundering that have been 
made in the press regarding 501(c)(3)s and 501(c)(4)s. Through 
our multiple document productions to Mr. Carrillo and to the 
committee, through my voluntary deposition, which by the way 
was open-ended. My attorney will tell you I was willing to come 
as many days and be deposed by the committee as need be. The 
committee determined that I had been fully forthcoming after 3 
hours.
    I also volunteered, as my letter of October 26 notes, to 
attend a hearing on October 26. During all of that voluntary 
and cooperative interaction with the committee, I have 
repeatedly attested that no money moved through the Council of 
Republicans for Environmental Advocacy, nor was one penny, to 
the best of my recollection and I have worked to refresh my 
recollection, spent from our account on an Indian tribal 
matter.
    We were very grateful for the generous support of the 
Native American community and I continue to be grateful for 
their generous support, but I am absolutely steadfast in my 
assertion that we raised money from a legal group of 
individuals. We spent it on our environmental mission, and we 
never said or did one untoward thing to any Native Americans.
    So it is disheartening to me to sit here and to have my 
good name and the name of my organization painted with the same 
broad brush that Jack Abramoff and Michael Scanlon and other 
folks involved with this matter have been painted.
    So, and I have my letter here. I did not have a subpoena on 
October 26, Vice Chairman Dorgan. This letter was actually sent 
to Senator McCain's staff. So I do not know if you have a copy 
of this letter, but I would just like to read it into the 
record. I would just like the record to reflect that I did not 
have a subpoena when this letter was written and that the 
committee subpoenaed me after I had left for my trip and after 
this letter had been received.

    October 26, 2005. Dear Mr. Carrillo, As you are aware, I 
responded 2 weeks ago that I would accept the committee's 
invitation to participate in a hearing scheduled for October 
26, 2005. I also voluntarily made myself available to answer 
the committee's questions via a deposition on October 7, 2005. 
Both of these events caused me to clear my schedule and to 
alter previously planned trips.
    The committee's last minute rescheduling of the October 26 
hearing to November 2, 2005 makes my participation impossible. 
November 2 is the anniversary of my father's death and I will 
be out of town.
    I thank the committee for its understanding. Should you or 
the committee have additional questions, please contact Mr. 
Scheininger and he will be happy to assist. Respectfully, 
Italia Federici.

    And thank you. I am happy to answer the committee's 
questions today.
    The Chairman. Thank you very much.
    I do not want to get sidetracked on this issue of the 
subpoena, Ms. Federici, but we have a very different version of 
events. Our staff called your lawyer and asked him whether Ms. 
Federici would be out of town because it was the anniversary of 
your father's death. He said he could not make that 
representation. He had no more information than what was 
contained in the letter that you just wrote.
    Our staff asked your lawyer to provide any additional 
information that we needed to have, and that this be done in 
time for the hearing. We asked your lawyer to indicate whether 
he was authorized to accept service of a subpoena by the close 
of business, and he failed to do either. In fact, up until last 
week, the committee heard nothing from you or your lawyer.
    On October 28, the committee obtained the assistance of the 
U.S. Marshals, which had been looking for you. I understand 
that your colleague at CREA, Jared Carpenter was notably 
unhelpful to the marshals.
    On November 1, I informed your lawyer that if for whatever 
reasons you did not appear at the November 2 hearing, the 
committee would reconvene at its nearest convenience and 
conduct a hearing for you. We still did not get any response. 
You did not appear at the hearing. The vice chairman and I 
agreed to conduct another hearing.
    It goes on. The fact is, you failed when asked to provide 
the committee with information necessary for the committee to 
determine whether the explanation you cited for not appearing 
last time was in fact reasonable. But you are here, and more 
importantly, you can, I understand your statement, and 
unfortunately I do not think it bears much relation with 
reality.
    Let's stick to the facts, the facts which explain which why 
we are here today. The committee has information that over a 3-
year period, Mr. Abramoff had some of his tribal clients donate 
hundreds of thousands of dollars to your organization. During 
the same period, you repeatedly, and we have documents to 
authenticate this, you repeatedly told Mr. Abramoff when asked 
that you would pass along information to and get inside 
information from the Department of the Interior about issues 
important to his clients.
    Mr. Abramoff, and I will cite you e-mails, believed you had 
``juice'' at the Department of the Interior and he told 
colleagues that you were critical to his lobbying practice. In 
some instances, you did pass along information between Mr. 
Abramoff and then-Deputy Secretary Griles, but you told 
committee investigators that more often you did not.
    The question we will explore is did you exchange your 
access to Interior, mainly your relationship with Mr. Griles, 
for contributions to the CREA? If so, why? And did Mr. Griles 
know that? Did you tell Mr. Abramoff that you ended up not 
doing a lot of what you said you would? If not, why not? And if 
so, what did he tell his clients to induce them into donating 
so much to the CREA? Were their contributions a product of 
deception?
    And that is why we are here today. So, Ms. Federici, in 
front of you is a file of documents that I would like you to 
look at and refer to so you can respond to questions.
    Please refer to exhibit 49. Exhibit No. 49, as you are 
looking it up, is an e-mail from Mr. Abramoff to you dated 
September 4, 2002. It is entitled ``Tigua Water Issue.'' Here, 
Mr. Abramoff provides you with a summary on a policy issue 
related to the Tigua Tribe, one of Mr. Abramoff's clients who 
contributed at least $50,000 to the CREA. In this e-mail, Mr. 
Abramoff says to you, ``this sums it up. Thanks for all that 
you do for my clients, the cause and me personally.'' What did 
you do for Mr. Abramoff's clients, Ms. Federici?
    Exhibit follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Well, I think that we have a different 
perception of this e-mail. I think that quite clearly here, Mr. 
Abramoff separates out what I do for the cause, which is my 
work with the Council of Republicans for Environmental 
Advocacy, from what I do for him personally.
    The Chairman. I am interested not so much for the cause. I 
am interested in what you do for your clients and him 
personally. What did you do for Mr. Abramoff's clients?
    Ms. Federici. I believe that for Mr. Abramoff's clients, 
who were donors to CREA, that we provided excellent 
environmental advocacy, consistent with our mission. We invited 
them to participate in all of our CREA events.
    The Chairman. The e-mail refers to the Tigua water issue, 
Ms. Federici, not to what you do for their clients.
    Ms. Federici. Senator, I get a lot of unsolicited e-mail 
and I am helpful to all of my friends. If on September 4, 2002 
for some reason Jack Abramoff wanted to share with me this 
issue, and I told him I would take a look at it, I don't see 
how that has anything to do with fraud or with non-profit 
abuse.
    The Chairman. Okay, then we will get a little more 
specific. According to e-mails obtained by the committee, I 
would like for you to look at exhibit No. 52 please. It appears 
you served as a liaison between Mr. Abramoff and then-Deputy 
Secretary Steven Griles about matters affecting Mr. Abramoff's 
clients. Let me review some of them. Exhibit 52, on September 
24, 2002, Mr. Abramoff asked you to talk to Mr. Griles about a 
``Tigua water issue.'' You responded, ``I am calling right 
now.''
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Mr. Abramoff indicates to me in this e-mail, 
and I did not have any independent corroboration, that Steve 
told him that Steve would have someone look into that and the 
Tigua were getting desperate. Now, I had no reason in 2002 to 
believe that Mr. Abramoff was anything other than a truthful, 
friendly, charismatic, well-liked, and well-respected 
Republican activist in Washington. And he sent me an e-mail 
where he made a representation to me that he had a conversation 
with Mr. Griles and that the Tigua were getting desperate about 
a water issue.
    The Chairman. Did you call?
    Ms. Federici. What kind of a person gets an e-mail where 
somebody says a Native American community is desperate about a 
water issue and then shoots back, you know, go pound sand. I 
mean, of course----
    The Chairman. Ms. Federici, I would like for you to respond 
to the question. Did you call, Ms. Federici?
    Ms. Federici. I do not know whether I called or not, but as 
you can see----
    The Chairman. Even though you say in the e-mail ``I am 
calling right now.''
    Ms. Federici. As I told your committee repeatedly 
throughout my deposition, and I have been very strident and 
consistent on this point, Steve Griles was the Chief Operating 
Officer as the Deputy Secretary of the Interior. He traveled. 
He gave speeches. He went to meetings. He was a very busy man. 
I attempted to reach Steve many more times than I actually did. 
I can't have stated that enough in my deposition.
    The Chairman. You do not recall whether you called or not?
    Ms. Federici. Well, apparently, if I said I was going to 
call, I called. But if I did not get him, then I did not get 
him. A week later, Mr. Abramoff says you never responded to me. 
So again, these are e-mails that are 3 years old, but it is not 
Mr. Abramoff asking me to do his bidding. And I don't indicate 
whether or not I reached Steve. I am happy----
    The Chairman. I think that ``his bidding,'' Ms. Federici, 
was for you to talk to Mr. Griles about a Tigua water issue and 
you responded that you were calling right now.
    Ms. Federici. You know what, Senator, I am proud----
    The Chairman. Ms. Federici, I would very much appreciate it 
if you would specifically answer the questions.
    Ms. Federici. ----of myself. I am proud of myself for 
having been personally helpful to a friend who had desperate 
clients.
    The Chairman. As a witness before this committee, Ms. 
Federici, I expect you to answer the questions. There is such a 
thing as contempt of Congress if you do not answer the 
questions. If you chose to take the fifth amendment, that is 
your right. Otherwise, answer the questions. Okay? That is the 
last time I am going to warn you about it.
    Now, did you call him or not? Do you recall whether you 
called or not?
    Ms. Federici. I absolutely have no recollection.
    The Chairman. That is the answer to the question. Thank 
you.
    Ms. Federici. If I told Jack that I was going to call, I 
would have.
    The Chairman. On exhibit 56, now, I want to caution you 
again, Ms. Federici, I want answers to the questions. I do not 
want a filibuster. Exhibit 56, an e-mail dated December 4, 2002 
entitled ``Gun Lake Indian Tribe Casino.'' Mr. Abramoff 
complains to you about developments relating to this tribe and 
conveys to you a strategy regarding the tribe's environmental 
impact report to shut down the tribe's land and trust 
application. You respond, ``I will call ASAP to Steve Griles.'' 
Also in exhibit 57, dated December 6, 2002, entitled ``Gun 
Lake, New Hope for Gun Lake Casino,'' Mr. Abramoff urges you, 
``this is what we have to stop.'' You respond, ``Seeing him at 
4 p.m. today.''
    [Exhibits follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Now, do you recollect whether you called Steve Griles ASAP 
as indicated by your response in exhibit 56?
    Ms. Federici. Senator, where I do not have any independent 
recollection.
    The Chairman. What about in exhibit 57, where you respond, 
``seeing him at 4 p.m. today.'' Did you see him at 4 p.m. that 
day?
    Ms. Federici. I would have no way of knowing whether or not 
I actually saw Steve or the meeting was canceled.
    The Chairman. You have no recollection of a meeting you 
might have had with a top official at the Department of the 
Interior?
    Ms. Federici. He was an 11 year friend of mine, or 10 year 
friend of mine.
    The Chairman. But you would not remember if you had a 
meeting with him or not?
    Ms. Federici. No; Steve Griles and I have been friends 
since 1997.
    The Chairman. The length of your friendship is not to 
important to this conversation. What is important is whether 
you would remember or not whether you had a meeting at 4 p.m. 
on December 6, 2002 with Mr. Steve Griles.
    Ms. Federici. How would I remember that?
    The Chairman. Most people do remember when they have a 
meeting with high-ranking officials of the Administration. That 
is how you would remember it.
    Ms. Federici. Well, Senator, I do not recall if I saw Steve 
or did not see Steve at 4 p.m. on December 6, 2002.
    The Chairman. Do you keep records of appointments that you 
make?
    Ms. Federici. Not consistently. I do not keep a day-timer 
or anything like that.
    The Chairman. Please turn to exhibit 72, dated March 6, 
2003, entitled ``Saginaw Chippewa Tribe School Cost Share.'' 
Here, Mr. Abramoff asked you ``if you can call Steve on this.'' 
You respond, ``Got it.''
    Ms. Federici. Senator, Where? I am sorry.
    The Chairman. Exhibit 72.
    Ms. Federici. Okay. Thank you.
    The Chairman. Exhibit 72, March 6, 2003, entitled ``Saginaw 
Chippewa Tribe, School Cost Share.'' Here, Mr. Abramoff asked 
you, ``if you can call Steve on this.'' You respond, ``Got 
it.'' Do you recall communicating with Mr. Griles in response 
to the March 6, 2003 e-mail?
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. No; and I think that if I recall correctly my 
response ``got it'' was a dismissive, I do not necessarily plan 
to take any action on that; just e-mail received. If you did 
not respond to Jack's e-mails, he would call and call and call 
and e-mail and e-mail and e-mail until he knew that you had 
received what he wanted you to receive.
    The Chairman. That fact that you have been friends with Mr. 
Griles, it seems to me, we are not talking about friendship; we 
are talking about official communications concerning 
substantive issues here. So I am puzzled why you would not 
remember, for example, a 4-p.m. meeting on a certain date, not 
on a social visit, but on a specific issue affecting Native 
Americans.
    Ms. Federici. Senator, I would not have scheduled, I think 
there is a misunderstanding I would like to clarify.
    The Chairman. Okay.
    Ms. Federici. I believe my response to seeing him at 4 p.m. 
today was that I was telling Mr. Abramoff that I had already 
had a previously scheduled appointment or meeting, and 
considering the timeframe in December, maybe that was around 
the Department of the Interior's Christmas party. I am not 
really sure. But I did not set up a special meeting to go to 
the Department of the Interior to raise that issue with Mr. 
Griles, and I can see why you would think that if I had done 
that, I would recall it, but I had some other reason for going 
to the Department of the Interior at 4 p.m. on December 6.
    The Chairman. Well, I can also see why if Mr. Abramoff 
received that response when he asked you to address an issue 
with Mr. Griles and you say ``I am seeing him at 4 p.m. 
today,'' I would naturally assume that that response would be 
indicating that you would be discussing that issue with him.
    Ms. Federici. I never really went into the substance of 
these issues with Mr. Griles.
    The Chairman. You didn't?
    Ms. Federici. As I said in my deposition, to the best of my 
recollection.
    The Chairman. Then look at exhibit 55. Now, exhibit 55 is 
an e-mail from Mr. Abramoff to you dated December 2, 2002, 
entitled ``Jena Band, Logansport Asked to Speak on Proposed 
Casino.'' Mr. Abramoff writes, ``It seems that the Jena are on 
the march again. If you can, can you make sure Steve squelches 
this again.'' You respond, ``Thanks for the update. I will 
bring it up ASAP.''
    [Exhibit follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Right. And I told the committee staff during 
my deposition that I did have specific recollections of 
mentioning Jena and Saginaw Chippewa with Deputy Secretary 
Griles, but not the substance of what those issues were.
    The Chairman. That is a remarkable statement.
    Exhibit 39, please look at it, an e-mail from Mr. Abramoff 
to Michael Scanlon entitled, Mr. Abramoff says he ``just got a 
call'' from you. You apparently provided Mr. Abramoff with 
then-non-public information from Mr. Griles that, ``as of now, 
Norton is going to sign the Jena deal.'' Do you know anything 
about that? In other words, the implication in this e-mail is 
that you received information from Mr. Griles that was not 
public, that says ``as of now, Norton is going to sign the Jena 
deal.''
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. I do not recall having had that conversation 
with Mr. Abramoff, Senator, but I do recall that, this goes to 
sort of what I said about not discussing the substance of the 
specific issues, but having mentioned the issue in general. The 
Jena issue, as I remember it, for me was that it was much more 
of a political problem that Jack was raising with me; that 
Christian conservatives and other very important grassroots 
constituencies and large blocs of Republican Congressmen and 
Senators were very angry because they felt that they were not 
being heard.
    I believe what I told your staff during the deposition was 
that my memo that I wrote to the Department of the Interior, 
that I addressed actually to Eric Ruff, and any of the mentions 
with regard to Jena would have been much more focused on, I am 
hearing that Christian conservative groups are really angry and 
that they are going to start running negative ads about 
Secretary Norton; it is something to do with the Jena; or I am 
hearing or I was shown a stack of letters signed by very large 
blocs of Republicans and that are saying that the doors of BIA 
have been closed to them, and they are not having access and 
getting the respect that they think that they are merited; Is 
anybody aware of what is happening with this Jena issue?; Is 
anybody talking to these people?
    That is what I meant by not discussing the substance. You 
know, Senator, sitting here today I now know that the Jena 
issue was about a designation for land and it had to do with 
casinos. That was not my understanding of the issue 3 years 
ago.
    The Chairman. Who are these large blocs of Congressmen and 
Senators, Ms. Federici? Can you give us the names?
    Ms. Federici. Well, groups.
    The Chairman. You just said that large blocs of Congressmen 
and Senators.
    Ms. Federici. Right.
    The Chairman. Who were they?
    Ms. Federici. Well, if you really want me to just start 
naming names of people I saw letters signed by?
    The Chairman. Sure.
    Ms. Federici. Okay. Senator Grassley, Senator Stabenow. I 
do not know which particular Indian issues they were, but I was 
told----
    The Chairman. We were specifically referring to the Jena 
issue.
    Ms. Federici. Okay. Well, with the Jena issue, I believe it 
was the Republican Policy Committee, which is sort of like your 
Gang of 14. It is a bloc of people. I understood that there 
were Senators and Congressmen who were unhappy that this was 
going to be taking place in their districts.
    The Chairman. I am interested in knowing who those 
individuals were, or some of them, if there large blocs.
    Ms. Federici. Well, I cannot name all of the Senators or 
all of the Congressmen who are part of the Republican Policy 
Committee.
    The Chairman. Can you name one of the large blocs of 
Senators and Congressmen?
    Ms. Federici. I did, the Republican Policy Committee. So if 
you know who is involved in that.
    The Chairman. I am asking if you can name one Senator or 
Congressman. The Republican Policy Committee has nothing to do 
with the Gang of 14. Please go ahead.
    Ms. Federici. Well, Senator, you have all the letters.
    The Chairman. Do you have any names? You just said there 
are large blocs of Congressman and Senators.
    Ms. Federici. There were.
    The Chairman. Then tell me the names of them?
    Ms. Federici. Well, Senator, sitting here today without 
having notes in front of me, I cannot recall and I do not want 
to just sort of start throwing names out. I did give you some 
names of Senators and Congressmen who I said signed letters 
that I saw about tribal matters and who seemed to be upset. You 
did not like that response.
    The Chairman. Did you ever provide documents to Mr. Griles 
that you had received from Mr. Abramoff or his associates, that 
is, the Jena notebook?
    Ms. Federici. Pardon me?
    The Chairman. Did you ever provide documents to Mr. Griles 
that you had received from Mr. Abramoff or his associates?
    Ms. Federici. I cannot recall having given Mr. Griles 
documents. I mean, I might have shown him a newspaper article 
or something like that, but I did several days after the last 
hearing watch the hearing. The notebook I believe you are 
referring to appeared in November 2003. By November 2003, I do 
not think I communicated with Jack Abramoff for 4 months.
    The Chairman. But you do not recall if you ever provided 
any documents that were given to you by Mr. Abramoff or his 
associates to Mr. Griles?
    Ms. Federici. I recall newspaper articles, Senator. I 
believe that that was somewhat covered during my deposition. 
They were all newspaper articles that I was shown.
    The Chairman. All you did was provide newspaper articles, 
nothing more?
    Ms. Federici. Not that I can recall, and I haven't had 
anybody show me anything to refresh my memory otherwise.
    The Chairman. Exhibit 64, Ms. Federici, an e-mail dated 
January 21, 2003 entitled, ``Intel from Department of the 
Interior BIA.'' Mr. Abramoff asked you if there is ``any way to 
find out when and how the BIA will respond to a letter from 
Governor Foster about a new Jena casino.'' You respond, 
``Thanks, Jack. I will ask about the timing and content and 
call you.'' Mr. Abramoff also reached out to you about the Jena 
Band's casino proposal, that is in exhibit 73. That is an e-
mail dated March 9, 2003 entitled ``Jena Choctaw Update.'' You 
responded, ``I will call you on Monday with whatever I can find 
out.''
    [Exhibits follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Okay.
    The Chairman. These e-mails are typical of many others we 
have, where Mr. Abramoff asks you to contact Mr. Griles on 
issues important to his clients, his clients have contribute to 
the CREA. And you say, ``I am on it; I will get back ASAP; I 
will bring it up ASAP.'' Did you actually do the things you 
said you would or not?
    Ms. Federici. Senator, if I told Jack Abramoff that I would 
make a phone call, I did. But as I said before, I tried to 
reach Steve many more times than I actually successfully 
reached him.
    The Chairman. Why wouldn't Mr. Abramoff just contact Mr. 
Griles himself?
    Ms. Federici. That is an excellent question.
    The Chairman. Why didn't you ask him that during all these 
e-mails that you were receiving from him over a period of 
years, and saying, ``I am on it; I will get to it ASAP; Seeing 
him at 4 p.m. today,'' et cetera. Why didn't you ask him that 
question?
    Ms. Federici. Because he was a friend and a donor, and when 
my friends reach out to me and ask me to help them with things, 
I never turn around and say, why don't you just do it yourself. 
A lot of people ask us for assistance or for help all the time, 
and I would never turn to a friend and say, do it yourself, 
especially when you are talking about a local telephone call.
    The Chairman. You didn't reach Mr. Griles or did not get 
done what he had asked for. Did you ever tell him that you 
didn't?
    Ms. Federici. Well, it was apparent from the numerous e-
mails throughout the lifetime that I knew Jack that many things 
did not get answered.
    The Chairman. But Ms. Federici, there is no e-mail from you 
that says ``I didn't contact him; I didn't meet with him; I 
didn't get this information.''
    Ms. Federici. Well, Senator----
    The Chairman. Let me finish my question, Ms. Federici.
    What is in all of these e-mails is, ``You've got it; Thanks 
for the update; I will bring it up ASAP; I am calling right 
now.'' There is never an e-mail that says, ``I did not get a 
hold of him; I was unable to communicate.''
    Ms. Federici. But there are e-mails from Jack to me saying, 
``Why didn't you respond to my e-mail?; What is going on with 
this?; How come you never got back to me?; Where are we on 
this?; What is going on?''
    There are e-mails coming from him that clearly indicate 
that between my e-mail back, just sitting at my computer, okay, 
sure, I will ask about that; thanks, Jack; send. And then a 
week would pass, 2 weeks would pass, however much time, 
repeatedly throughout these e-mails he writes back to me and 
says, ``I didn't hear anything; what is going on?; Can you give 
me an update?''
    The Chairman. Why didn't you just tell him? Why is there no 
e-mail that says, ``I did not contact him; I did not get an 
answer; I cannot help you out.?''
    Ms. Federici. I was probably busy doing some of the 
Republican Environmental Advocacy work that I was working on.
    The Chairman. I see, but you would respond by saying ``I am 
on it'' and ``I will do it,'' but you could not respond that 
you were too busy to respond by saying, ``I did not get a hold 
of him.''
    Ms. Federici. I might have called Jack to say, you know, 
there are a lot of e-mails, and then I am going to call Jack to 
say, ``Jack, I didn't reach him; I will try later.'' But there 
are plenty of e-mails to me, Senator, where Jack Abramoff, one, 
apologizes consistently from day one to the last day of the 
communication for bothering me with tribal matters, and there 
are also e-mails----
    The Chairman. It's funny. We did not get those e-mails, and 
we got all of their e-mails, Ms. Federici.
    Ms. Federici. There are many of those e-mails.
    The Chairman. Look at exhibit 81 please. Look at exhibit 
81. This is April 3, 2003 between you and Mr. Abramoff entitled 
``Urgent Alert, DOI Proposes Policy Changes in Compact Review 
Process.'' Here, Abramoff attaches a memo on this issue, to the 
e-mail, and writes, ``If this attached memo is correct, someone 
over at BIA is doing some really odd things. Any way to see if 
this is something coming from the top? All of our tribes are 
very agitated about this one.'' In response, you write, ``I 
will definitely see what I can find out. I hate to bug you, but 
is there any news about a possible contribution?''
    Ms. Federici. From a tribe for the Labor Environment----
    The Chairman. Ms. Federici, I have not completed my 
question to you.
    Ms. Federici. Okay.
    The Chairman. Ms. Federici, any objective observer would 
see that there is a clear connection between contributions to 
your organization and work that you would be doing on behalf of 
Mr. Abramoff with the Department of the Interior. I will repeat 
again. In response, you write, ``I will definitely see what I 
can find out,'' and then you immediately go on to say, ``I hate 
to bug you, but is there any news about a possible contribution 
from Redacted?''
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Okay, ``Because the Labor Environment 
Alliance launch is rapidly approaching and we are very, very 
committed. I am worried about getting everything in place. The 
Labor Environment Alliance is great and will be extremely 
helpful to our guys. Thanks for all of your help.''
    Every one of my funding requests to Jack was attached to 
not only an environmental project, Senator, but a completed 
environmental project. The Labor Environment Alliance was time-
consuming to organize. It was extremely successful. We traveled 
out of State, and we did a very successful grassroots campaign.
    The Chairman. This is totally non-responsive, Ms. Federici. 
Is there a connection between what you say, ``I will definitely 
see what I can find out; I hate to bug you, but is there any 
news about a possible contribution.'' Does that appear to be 
that there is a quid pro quo here?
    Ms. Federici. No; The quid pro quo is I need the money for 
LEA. All I did was attach, a, ``yes, Jack, I will look into 
that. By the way, while I am sending you an e-mail,'' I did not 
write that, I would like to attach the second thought. I mean, 
it just is not a natural way for someone to write. So he sent 
me an e-mail. I told him I would look into it, and then I 
attached a second unrelated thought about a contribution 
attached to an environmental project. An environmental project, 
Senator, was expensive and it was completed.
    The Chairman. Well, we have many e-mails, Ms. Federici. For 
example, exhibit 66, an e-mail between you and Mr. Abramoff 
entitled, ``Help.'' Here you ask Mr. Abramoff, ``I hate to 
bother you with this right now; hoping to ask you about a 
possible contribution to CREA.'' It started out, Mr. Abramoff 
graciously responds, ``We will get that moving ASAP; I will hit 
them immediately.'' But he continues, ``By the way, Governor 
Foster just sent Gale another letter pushing a new compact he 
signed for Jena. Can you make sure Steve knows about this and 
puts the kaibosh on it? Thanks.'' Ms. Federici promises, ``I 
will tell him where they are now and with whom. Thanks, Jack.''
    There are numerous e-mails.
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. I never asked Steve to put the kaibosh on 
anything. And Senator, I cannot tell you what was in Jack's 
mind. I only know what was in my mind. Jack gave me a reason 
for why the Native American tribes were donating to us. We were 
very pleased for their generous contributions. I repeatedly 
offered to meet with them in my capacity as CREA's president. 
We invited them to our events and I used their resources to 
complete substantive and important environmental work.
    The Chairman. Did it matter to you that Mr. Abramoff was 
asking you to contact Mr. Griles on issues important to donors 
to the CREA?
    Ms. Federici. No; not particularly. I was responding to 
Jack at the time, he was a friend, in the way I would respond 
to any friend who had a need or a question.
    The Chairman. Well, in the record, there is a continuous 
stream of e-mails that connect contributions to you and CREA 
with actions that are requested or anticipated concerning 
Native Americans. There is a long stream of them, and they will 
be in the record. Since your answers are so bizarre, I will not 
continue. I will let others make that judgment.
    Ms. Federici. Senator, am I allowed to add something 
quickly?
    The Chairman. Sure.
    Ms. Federici. Okay. I did notice on the committee's website 
there is an e-mail, and part of this is----
    The Chairman. There is a stream of e-mails, Ms. Federici.
    Ms. Federici. Okay, there is a stream of e-mails. I only 
got like one or two in before I stopped looking. There is an e-
mail. I do not know the context of these e-mails. You are 
saying that you do not have any of the e-mails from Jack where 
he apologizes to me for----
    The Chairman. We have all the e-mails. We just do not have 
the e-mails that contain the information that you claim there 
is. We have all the e-mails.
    Ms. Federici. Okay. Well, here is an example, Senator. On 
Thursday, March 1, 2001, there was an e-mail stream that was 
put up on the internet that appears to show, as it is posted, 
that I invited Jack to meet Secretary Norton at Julie Finley's 
home, and then Jack said, ``wow, that would be great; thank you 
so much for everything; let me know if I can help you cover the 
costs.'' And it stops there. And it would create the impression 
in mind of anyone who did not know the circumstances that I was 
charging people to meet Secretary Norton. The missing part of 
that e-mail is the part where I say, ``Thank you so much for 
the offer, but Julie is the hostess with the mostess, and she 
will not let anyone help with anything. She is great.'' And I 
turned down the contribution.
    So these e-mails, if we are going to parse them 
individually, tend to take----
    The Chairman. We are not parsing them, Ms. Federici. We 
have a long stream of e-mails. I did not bring up that e-mail 
that you are talking about because there may be some ambiguity 
associated with it. The fact is, there is a long stream of e-
mails that show a direct connection between contributions, your 
relationship with Mr. Griles, and action taken by the, well, 
action that was taken or was attempted to be made.
    Ms. Federici. I do not understand why the committee 
doesn't----
    The Chairman. I did not even mention that e-mail that you 
wanted mentioned. It is clear, it is clear when you mention 
contributions to your organization in the same e-mail on many 
occasions, with action that you can have taken by the 
Department of the Interior, there is a connection, Ms. 
Federici. We are releasing all of these e-mails and we will let 
others judge, but it is clear to me what was going on.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Ms. Federici, when you came to the committee interview, you 
indicated on a number of occasions you felt this proceeding was 
a witch hunt. Can you tell us why you think this proceeding is 
a witch hunt?
    Ms. Federici. Senator, I have read in the newspaper and I 
have actually been told by the press that committee staff in 
particular are engaged in a smear campaign against me.
    The Chairman. Who in the press told you that?
    Ms. Federici. I do not believe that he would appreciate me 
telling his name. It would probably preclude his ability to 
work with other sources. But I have read that----
    Senator Dorgan. Ms. Federici, you are under oath and the 
chairman has asked you a question. You are suggesting that 
somehow someone was trying to smear you, and you have 
indicated----
    Ms. Federici. I was told that there was a narrative of a 
very personal nature that was being put forward from committee 
staff. You know, it sort of fits with----
    Senator Dorgan. Ms. Federici, look, that is not what you 
told the committee in your deposition. You suggested this was a 
witch hunt for other reasons, but now that you have apparently 
created a reason separate from that, you want to air that out. 
We would be happy to find all those sources if you want to do 
that.
    Let me just tell you my impression. I listened to your 
answers to Senator McCain. Here is what it looks like. Now, I 
come from a really small town, but I think I can spot a pretty 
big lie from time to time. Somebody has been lying to us. 
Somebody sitting at this table has been lying to us. You 
probably have not had a chance to hear the previous testimony, 
but we have witnesses that have come to this Committee that 
clearly have been lying. The question is who.
    Now, I have listened to the line of questioning proposed by 
Senator McCain today. I want to tell you my impression. You 
should disabuse that, if you think the evidence exists to do 
it. You received some hundreds of thousands of dollars in 
contributions to an environmental organization that you headed, 
and those hundreds of thousands of dollars came from Indian 
tribes. I assume that might have been a surprise to you. I 
mean, to head a Republican environmental organization, then all 
of a sudden one day to find, remarkably, you are getting a lot 
of money from Indian tribes.
    Ms. Federici. It did not surprise me, Senator.
    Senator Dorgan. Then why don't you tell me why you were not 
surprised.
    Ms. Federici. Okay.
    Senator Dorgan. And tell me also how much money you 
received from the various Indian tribes.
    Ms. Federici. I would be happy to do that.
    Senator Dorgan. All right.
    Ms. Federici. It did not surprise me because I have had a 
very close working relationship with Chairman Ben Nighthorse 
Campbell. When we founded our organization in 1997, he actually 
flew out to do Politically Incorrect with Bill Maher in an 
effort to help us get some publicity. He hosted a fundraiser 
with us where we did outreach to many of the same groups that 
are being discussed here today. And I follow the environmental 
movement very closely, obviously. It is what I do.
    In the year 2000, Ralph Reed ran for President of the Green 
Party and he selected as his running mate a Native American 
woman. I believe her name was Winona LaDuke. One of the things 
that they talked about repeatedly was that her Native American 
heritage gave her a wonderful respect for conservation and the 
environment, and the Green Party really liked that.
    I thought it was a wonderful----
    Senator Dorgan. Let me just correct that, because while 
Ralph Reed's name shows up in very many places, he would not 
want to be associated with your remarks.
    Ms. Federici. Right. I am sorry. Ralph Nader.
    Senator Dorgan. We have other reasons to pose future tough 
questions to Mr. Reed, but he would not want to be identified 
with someone who ran for President on the Green Party.
    Ms. Federici. Right. The Green Party, yes.
    But Native Americans are, I think, at least in my mind, a 
very generous group of individuals. In fact, I was kind of 
joking, we are a week from Thanksgiving, which is the 
quintessential holiday celebrating Native American generosity. 
And I believe that they are also very closely tied to the 
environment. So I was happy to receive money from them.
    Senator Dorgan. So, I have news for you. Ben Nighthorse 
Campbell is not an Indian tribe. He is a Native American. He is 
former chairman of this committee, but he is not a tribe.
    Ms. Federici. Okay.
    Senator Dorgan. And if you are suggesting somehow that your 
organization, a Republican environmental organization headed by 
you, is the recipient of hundreds of thousands of dollars by 
some act of generosity, that really strains credibility.
    Let me tell you what it looks like from my standpoint. I am 
going to go through a series of e-mails with you. It looks to 
me like----
    Ms. Federici. Senator, can I please just to the fullest of 
my ability?
    Senator Dorgan. Of course.
    Ms. Federici. I did print off some materials from the 
Saginaw Chippewa, from the Coushatta, and from the Choctaw 
website, and one piece in particular from the Saginaw Chippewa, 
a member of the Saginaw Chippewa Tribe, a member, I do not want 
to misspeak again, named David Pago wrote a piece called ``Gas 
Prices Hurt Indians More Than Others.'' I have worked for this 
entire relevant time period that we are discussing very hard on 
energy issues and issues that I feel would raise energy prices. 
The Choctaw Vision website, parts of it dovetail with the 
mission statement of the Labor Environment Alliance, including 
the Clean Air Act portions.
    Senator Dorgan. You are welcome to submit all that for the 
record, Ms. Federici. I am not----
    Ms. Federici. But Senator, I feel like what people are 
saying, and I might be misunderstanding you and the chairman, 
and please forgive me if I am, is that it should have been 
blatantly obvious to me that Native Americans would not be 
generous or philanthropic and would not care about the 
environment; and it should have been obvious to me at the time 
that they were making these generous contributions to my group 
for some third purpose.
    Senator Dorgan. Ms. Federici, look, let me finish what I 
was going to tell you. I am going to ask you a bunch of 
questions about the evidence itself.
    First of all, you have this organization that you head, a 
Republican environmental group, CREA, and you come into 
hundreds of thousands of dollars. And then we take a look at 
what your organization has been doing, a massive e-mail trail 
of contacts you have with Interior, with Mr. Griles, with Mr. 
Abramoff and so on. And it looks to me like you got paid for 
doing things that had nothing at all to do with your 
organization. That is probably for other people to investigate 
with some seriousness, but I want to ask you some questions 
about some of the evidence.
    You are an environmental organization. You come into a lot 
of money from Indian tribes. My guess is that that money had 
nothing to do with generosity, or had very little to do with 
energy or the environment, but had a lot to do with Mr. 
Abramoff saying to his contacts in these tribes, ``I want you 
to stick money into Ms. Federici's organization,'' and they 
did.
    We have had testimony about that. Let me just read you some 
information from document 88. I'll just go through a series of 
them. From Abramoff to Italia, ``Want to see if we can get a 
sense as to where we are on the following: Sac and Fox, Saginaw 
Chippewa school cost program; moving the Inspector General from 
Choctaw, Mississippi to Coushatta election; Mashpee, Jena. 
Thanks.''
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. And there is no response to that e-mail, Mr. 
Vice Chairman.
    Senator Dorgan. Pardon me.
    Ms. Federici. There was no response to that e-mail.
    Senator Dorgan. That is true. I am just telling you that 
our records are full of these things. It is full of references 
to the duties that you were performing for Mr. Abramoff. Those 
duties had to do with the term ``juice'' that also exists in 
our set of records. You had ``juice.'' You got paid for that 
``juice'' by having Mr. Abramoff direct funds to your 
organization, and you spent a lot of time in your 
correspondence back and forth with Mr. Abramoff about what you 
are doing; not about the environment; not about energy; about 
Jena, Mashpee, all of these issues that have to do with Mr. 
Abramoff.
    It looks to me like you were working for Mr. Abramoff and 
you were getting money from Indian tribes to do it. That is 
what it looks to me like.
    Ms. Federici. But Senator, I do not know what was in Jack's 
mind. I only know what I was told. And I never told or was told 
by or had a conversation with any Native American or Native 
American tribe where my duties to my donors were outlined as, 
you know, we think you have ``juice'' with this, that or the 
other thing, or where I requested funding for something other 
than environmental activism.
    Now, I believed at the time that the reason that Jack was 
giving us money is because he was a very generous Republican 
fundraiser. I mean, the amounts of money that, as I understand 
it----
    Senator Dorgan. Ms. Federici, that is unbelievable.
    Ms. Federici. What we received from Jack were modest in 
comparison to some of the fundraising that he did.
    Senator Dorgan. The way you describe it in this testimony 
is the Indian tribes are generous; Jack is generous; everybody 
is generous. That is unbelievable to me.
    Ms. Federici. That is unbelievable to me.
    Senator Dorgan. You think that there are resources in this 
town that provide generosity to the tune of several hundred 
thousands of dollars, and then we take a look at what was done? 
Let me just ask you to look at, if you would, exhibit 56, to 
you from Mr. Abramoff, ``The important thing is that Steve,'' I 
assume that is Mr. Griles, a friend of long- standing, ``Steve 
clearly understands what a great friend he has in you. He is a 
great guy and we need to make sure he is always protected.''
    What do you think he needed protection from, Ms. Federici?
    [Exhibit follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Well, I think I already answered that for 
your committee staff during the deposition. But I cannot 
believe that in all of the e-mails that you have that there are 
none of the e-mails where Jack is talking to me about how angry 
certain members of Congress are and that they are calling the 
White House, frankly; that people are upset with the Interior 
Department because they feel that there are problems with BIA.
    I believed that Jack's conversations with me were always 
geared toward, hey, you know, I did not know that he was behind 
the effort to do the grassroots work with Ralph Reed. All Jack 
did was pick up the phone and call me and say, ``Oh, my God, 
this is a disaster in the making. Ralph Reed and James Dobson 
are going to run ads against Secretary Norton. You need to give 
those people a heads up.'' I never knew that.
    I do not know what Jack was thinking in his mind or what he 
was doing. My conversations, to the extent that I would be able 
to reach anyone at Interior about this, was about, you know, it 
was political in nature, not related to the substance of the 
lobbying.
    Senator Dorgan. Ms. Federici, who is Eric Ruff?
    Ms. Federici. He is the communications director at the 
Department of the Interior, or he was.
    Senator Dorgan. This is a memo from you to Eric Ruff, 
exhibit No. 41, ``Hi, Eric. Here are two articles that were 
forwarded to me today. You can see from one that Ralph Reed and 
his firm are involved somehow. From what I have been told, 
Ralph is working with Doolittle, don't know whether for free or 
as a paid consultant, and has been bending the ear of Karl Rove 
and possibly even the president about land and trust gaming 
issues,'' and you go on and on and on.
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Right. But I did not know that Jack was 
behind that effort. And when I found that out, I felt 
tremendously manipulated. Jack presented that to me that this 
was something that he was hearing second-hand, or that he was a 
third party to it. He did not tell me that he was paying Ralph 
Reed to do that.
    Senator Dorgan. Reading from exhibit 4, ``Hi Italia,'' 
began Mr. Abramoff, ``I hate to bother you with something on 
tribal affairs, but one of our hard core tribes is being 
screwed by the BIA and we really need somehow to get the 
Secretary to undo this fast. Their insurance business is just 
about to go under, days away, and BIA is just not responding, 
since there is no new head there. I have sent this to Steve as 
well, but I thought perhaps you might be able to get this to 
the Secretary directly to get action. Here is the one-pager on 
it.''
    The point of this is that at the drop of a hat Mr. Abramoff 
would to send you a note and say, ``get this done; do this; 
contact this person.'' This is the person who incidentally gave 
you hundreds of thousands of dollars.
    [Exhibit follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Dorgan. Would you agree that the tribes donated 
this money at Mr. Abramoff's request? I am talking about 
donated money.
    Ms. Federici. Oh, absolutely, absolutely.
    Senator Dorgan. So Mr. Abramoff got the tribes to donate 
some hundreds of thousands of dollars to you. Do you agree that 
Mr. Abramoff is constantly asking you to do business for him 
with respect to tribal interests? Do you agree with that?
    Ms. Federici. Senator, it appears constant because we are 
going through it in a rapid-fire fashion, but to me, if it was 
once every other week, that did not seem rapid-fire at the 
time.
    Senator Dorgan. Whatever ``rapid-fire'' is, do you agree 
that Mr. Abramoff, after getting you the funding for your 
organization, was asking you, as we have cited in the evidence, 
asking you to do some Indian business with him at the 
Department of the Interior because you had ``juice?'' Do you 
agree with that?
    Ms. Federici. No, Senator; I do not agree with the 
characterization that Jack made; that I was not a party to; 
that I had ``juice'' at Interior. I had friends.
    Senator Dorgan. I would like to stop with the ``juice'' 
thing. Do you agree with this. Do you agree that Jack Abramoff 
got you some hundreds of thousands of dollars and then asked 
you over a period of time, many times, to get involved in 
Indian issues that he was involved with with the Department of 
the Interior? Is that the case?
    Ms. Federici. He did make requests of me, and he did also, 
Senator, continually apologize to me throughout this time 
period for, bugging me with tribal issues.
    Senator Dorgan. And so he got you the money. He asked you 
to do some work with him with the Department of the Interior. 
Did you do some work with the Department of the Interior? Did 
you contact Mr. Griles? Did you do the kinds of things he was 
asking?
    Ms. Federici. I sent the memo to Eric Ruff, giving him a 
heads up. And I told the committee staff in my deposition that 
I did raise the concern that members of Congress had about both 
Jena and Saginaw Chippewa with Steve, but I did not get into 
the substance of those issues with the Department of the 
Interior officials.
    Senator Dorgan. The exhibits that I have read to you just 
go on and on and on from Mr. Abramoff to you. As I have 
indicated previously, you are then sending materials as well, 
in this case to Mr. Ruff at the Department of the Interior.
    Ms. Federici. But I think that memo was appropriate. I 
mean, I think that memo was appropriate.
    Senator Dorgan. My point is this. My point is you received 
information to an environmental group, non-profit that you----
    Ms. Federici. No; to me as a person, Senator. I did tell 
your Committee staff also, I paid for this e-mail account out 
of my own pocket because I use it for both personal and 
business. I paid for my cell phone out of my own pocket.
    The Chairman. You pay for your cell phone out of your own 
pocket?
    Ms. Federici. During this time period.
    The Chairman. How much money did you get from Abramoff and 
his clients?
    Ms. Federici. We got hundreds of thousands of dollars.
    The Chairman. How much, roughly?
    Ms. Federici. Okay, without disclosing donors, I believe it 
is about $500,000.
    The Chairman. Over what period of time?
    Ms. Federici. Three years.
    The Chairman. Over $500,000?
    Ms. Federici. Not over, not over. You guessed $400,000.
    The Chairman. And that is modest, and so you were able to 
pay for your own cell phone.
    Ms. Federici. But Senator, I was not abusing non-profit 
resources, okay? And Jack at the time, I believed, was a 
friend. I did not know that he was doing the things that he was 
doing. I really wish, sitting here today, I really wish that 
any of the Native Americans who donated to us had just once in 
this time period picked up the phone and called me and said, 
you know, what are you doing with our contribution; or how is 
this money being spent; so that I could have had a direct line 
of access to them.
    I repeatedly offered to meet with our Native American 
donors. I invited them to all of our events. I was told by Jack 
Abramoff that these were people who wanted him to, as their 
Washington representative, help them to formulate where he was 
going to give money, and that they did not want to be bothered 
with me.
    Senator Dorgan. Ms. Federici, you must be the luckiest 
woman alive.
    Ms. Federici. I thought I was.
    Senator Dorgan. To be heading an organization and all of a 
sudden a friend says, you know something, let me get you about 
$500,000. But now we know what that was for, in my judgment.
    Let me ask you a question about exhibit 56, It is from Mr. 
Abramoff to you, subject Jena Band panel, ``It seems the Jena 
are on the march again. If you can, can you make sure Steve 
squelches this again? Thanks.''
    Ms. Federici. I never asked Steve to squelch anything the 
first time. So I do not know, I have listened to your staff; 
Jack was close to 50, a man, and a high-dollar donor. I did not 
feel comfortable correcting his vernacular. We work with people 
every day who have varying levels of decorum. There are lots of 
things, phrases that Jack would use that I would not be 
comfortable using, but I did not feel comfortable e-mailing him 
back and saying, don't use the word ``kaibosh'' with me.
    I do think that he was not nearly as harsh with me as he 
was, say, about me. For example, in the e-mail that your 
committee staff showed me from this same time period where he 
told people he was going to ``f--ing bury me.'' I mean, it is 
obvious from the e-mails that you have that there was a lot 
that Jack was doing that I had no idea about.
    Senator Dorgan. Ms. Federici, you had an event at 
Signatures restaurant. We have an e-mail trail about the 
question of whether your organization was going to actually pay 
for the food and so on at Signatures restaurant. Let me go 
through a couple of these.
    Ms. Federici. Which exhibit is that?
    Senator Dorgan. Let me go through a couple of them. Exhibit 
47. This is from Rodney Lane to Mr. Abramoff, ``Spoke with 
Jared. I got the sense they were hoping we would` take care' of 
things; it sounds to me like they are planning on doing these 
luncheons twice a month; 10 or less coming for lunch tomorrow; 
to avoid embarrassment, maybe we should pick up at least one-
half this tab, then our work with Jared going forward would 
give him a discount on future events.'' It goes on, ``It looks 
like this bill was slightly over $300 plus tip; what do you 
want me to do in the future?''
    A series of things in which----
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. Jack was a donor. Again, I mean this goes to 
my naivete, but I thought he was very generous.
    Senator Dorgan. Well, that would be pretty generous; if you 
are going to do a couple of meetings a month and go to a 
restaurant and not be charged for it, that would be mighty 
generous.
    Ms. Federici. We did pay. We did pay, and we provided 
documents to the Department of Justice and the FBI and other 
people that showed that we wrote checks and did make payments 
to Signatures for the events that we did there. And I did leave 
open in my deposition with Mr. Carrillo the possibility that 
there was a lunch at some point that was picked up by Jack. We 
also did lunches at the Caucus Room and other places, and we 
would pay for our own lunches.
    The Chairman. Did Mr. Abramoff ever comp a CREA function?
    Ms. Federici. I cannot recall if he did or did not right 
now----
    The Chairman. But you just provided documents. Were you 
reimbursed? You must have examined whether there were cases 
where you were comped by Abramoff.
    Ms. Federici. If I didn't, the absence of a check would not 
be a document. How would I know?
    The Chairman. I think you would know whether you paid or 
not. Any record keeping would indicate whether you paid or not. 
The question is, did Abramoff ever comp an event by CREA?
    Ms. Federici. I can't say, but if he comped us a lunch at 
some point in time, we would have just written it down as an 
in-kind contribution. That is what an in-kind contribution is.
    The Chairman. Exactly. And that is the question: Did he 
ever comp anything for your organization?
    Ms. Federici. I was not asked to look into in-kind 
contributions, that I recall.
    The Chairman. You are totally non-responsive. You should 
know whether you were comped or not, because it is just a 
simple thing of recordkeeping. Go back into your records.
    Ms. Federici. For a $300-lunch 3 years ago?
    The Chairman. Please do not interrupt anymore, Ms. 
Federici.
    It is a simple question as to whether Mr. Abramoff ever 
comped anything for your or your organization.
    Ms. Federici. I do not recall.
    The Chairman. Then I would like to have you go back through 
your documents and provide for this committee whether he did or 
not.
    Senator Dorgan. Mr. Chairman.
    Ms. Federici. I would be happy to do that.
    Senator Dorgan. Let me just say that there is an exhibit on 
this. No. 71, from Laura Lippy to Rodney Lane and then to 
Abramoff from Rodney Lane. The end of it is, ``Jared called; 
they want to do this reception on Thursday, March 20, for 50 to 
75 people; Jared said that Italia and Jack spoke regarding this 
and Jack may want to comp it; Eric can you call Jared to get 
the details; Rodney will talk to Jack about the comp issue.'' 
And then he says, ``See what Eric comes back with, but it 
sounds expensive. Do we owe them something?'' Mr. Abramoff 
says, ``Unfortunately, she is critical to me. What will it cost 
us?''
    [Exhibit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Federici. This event, to the best of my recollection, 
as I answered in my deposition on October 7, did not take 
place. These are conversations between people, not me, and I do 
not know what Jack was thinking or what was in his mind. I 
can't address this e-mail.
    Senator Dorgan. Ms. Federici, there is so much to ask you 
about.
    Ms. Federici. I am happy to answer all of your questions.
    Senator Dorgan. I understand, although I guess I am not 
understanding your answers. I think that this set of e-mails 
and the evidence that we have collected through subpoena paints 
a very clear picture of what was going on. You are denying 
virtually all of it. I understand that. You come to the 
committee with some jeopardy.
    Ms. Federici. I am not lying. Senator, I am not lying to 
this committee, okay? I am not lying to this committee. Jack 
Abramoff gave us, you have to put it into the context of 4 
years ago, 4\1/2\ years ago. Jack Abramoff was a very well 
known and very highly respected lobbyist and Republican 
activist.
    Let me put it to you this way. When I walk into the 
Republican National Committee building, and Chairman McCain, 
you will know this more than Vice Chairman Dorgan, there is a 
center there called the DeVos Media Center. I believe that the 
DeVos', a couple, gave $1 million out of their own pocket to 
help construct that media center. I do not believe that they 
received anything personally in exchange for that. It is 
philanthropy.
    The Chairman. Ms. Federici, please. Let's get back on the 
subject. The time of this committee is more valuable than to 
talk about a contribution from someone from the State of 
Michigan.
    Here is the question, Ms. Federici. In one exhibit, Todd 
Boulanger, a senior member of Mr. Abramoff's team, is asked, 
``Can Italia get shit in the President's budget to Congress?'' 
Mr. Abramoff responds, ``I do not think she has juice beyond 
Interior.''
    Another exhibit, here the two discuss CREA and a political 
contribution, Mr. Abramoff writes to Mr. Boulanger, ``Todd, did 
we not request money for CREA from them? That is our access to 
Norton. We need money for them more than many of the others.''
    Another exhibit, here the two discuss a CREA freshman 
reception, Mr. Abramoff replies, ``Unfortunately, she is 
critical to me.''
    Why is it, Ms. Federici, that in your view, that Mr. 
Abramoff time after time after time, not only believes you are 
critical, but ensures that donations are made to you and your 
organization? How do you think he became so confused?
    Ms. Federici. Senator, how did he get confused enough to 
call Native Americans ``troglodytes?'' Nobody can know what 
Jack Abramoff was thinking.
    The Chairman. That is not responsive, Ms. Federici.
    Ms. Federici. I can't know what was in Jack Abramoff's 
mind.
    The Chairman. So the answer is you do not know?
    Ms. Federici. I have no idea. Those e-mails were not to me 
or from me.
    The Chairman. Although there are e-mails that say, ``I have 
got it; I will get on it; I have a meeting a 4 p.m. this 
afternoon.''
    Ms. Federici. I help my friends.
    The Chairman. We have a trail.
    Ms. Federici. I am sorry.
    The Chairman. Ms. Federici, for the last time, I am asking 
you not to interrupt me.
    Even though there is e-mail after e-mail where you state, 
``I've got it; I am on it; I have an appointment at 4 p.m.'' 
What is Mr. Abramoff supposed to think when every e-mail that 
he sends to you, you are saying ``I am on it ASAP; I have got 
it; I have a meeting at four,'' on and on and on. What is he 
supposed to think?
    Ms. Federici. Senator, it is not every e-mail. My e-mails 
to Jack, many, many, many, many of them, and I am extremely 
concerned that this committee does not have them, are all, 
``Jack, here is what we are doing with the money; we have this 
project; we are focus-testing this video that I brought with 
me; we are taking out a very expensive $40,000 ad in the 
Washington Post; we are launching a major alliance with the 
Teamsters that is going to cost 50 grand.''
    And that is what was in my mind. I cannot say what was in 
Jack's mind. From time to time, and it does, as we go through 
these rapid-fire, just sitting here today, he did ask me for 
assistance, but it was not the body of the work that I did. I 
did a lot of work, real environmental work with his funding.
    The Chairman. The focus of this committee's hearing is why 
you continued to respond to him, ``I've got it; I'm on it.'' 
And you have given no satisfactory explanation. And the fact 
that you were doing other work at the time, Ms. Federici, is 
not convincing.
    Ms. Federici. Well, Senator, may I respond?
    The Chairman. Yes; as long as it is a direct response to 
the question.
    Ms. Federici. Okay. But Senator, I did environmental work 
with the money that Jack gave us, and if he called me or e-
mailed me and asked me to pick up the phone and raise and issue 
and I said I was going to call, I called. I can't tell you what 
was in his mind. I don't know what he was telling his donors. I 
wish he had given me access to them. He did not, because I 
think that we would not be sitting here today if I had access 
to them. And we did not do anything untoward with those 
contributions.
    Thank you.
    Senator Dorgan. Ms. Federici, is your organization a 
501(c)(3) or (4)?
    Ms. Federici. No, sir; We are a 501(c)(4).
    Senator Dorgan. Formerly a 527?
    Ms. Federici. We were a 527 until 2000.
    Senator Dorgan. As a 501(c)(4), your organization would not 
be collecting money for the purposes of using it politically. 
Would that be accurate?
    Ms. Federici. I do not understand all the ins and outs.
    Senator Dorgan. Were there restrictions on the use of the 
money?
    Ms. Federici. We are not allowed to write checks to 
campaigns. We are not allowed to endorse political candidates. 
We are allowed to engage in advocacy, environmental advocacy 
and point out examples of hypocrisy and things like that.
    Senator Dorgan. In your deposition, you said ``we focus-
tested the video of John Kerry leaving a fuel efficiency rally 
and hopping into an SUV.''
    Ms. Federici. Right.
    Senator Dorgan. And then you talk about, ``I wanted to let 
you know we just posted the anti-Kerry video-clip on our 
website; released it to the news media in Beta format; The 
O'Reilly Factor and Hannity and Colmes are interested; I will 
keep my fingers crossed; the Post ad comes out on Wednesday.''
    Ms. Federici. It was very important to policy, because at 
the time Senator Kerry was threatening to filibuster ANWR on 
the floor of the U.S. Senate. And the rally that he was 
speaking at was a fuel efficiency and ANWR rally that he then, 
after telling people to tighten their belts, conserve and 
accept higher gas prices, walked past five limousines and got 
into a chauffeur-driven SUV. It was timed with an important 
public policy matter.
    Senator Dorgan. Ms. Federici, in these old western movies 
on television, they have this phrase, ``what are you going to 
believe: Me or your own eyes? I do not understand this 
testimony. This body of evidence we have is complete and 
persuasive that you came into hundreds of thousands of dollars, 
at some moribund little environmental organization, and all of 
a sudden you seem to be on the payroll of or working for Mr. 
Abramoff in all kinds of ways. I mean, obviously it looks to me 
pretty political, but let me ask you, how does this role of 
yours that we see in evidence here, how does that relate to 
Indian tribes as regards the environment?
    Ms. Federici. Well, okay, my op/ed piece that was entitled 
American Ingenuity in Energy Stability mirrors quite closely 
actually the piece written by David Pago from the Saginaw 
Chippewa Tribe, Gas Prices Hurt Indians More Than Others. We 
have worked extensively on issues relating to high gas prices. 
We are dancing around an issue here that I think it is time to 
mention because you asked me why I thought this was a little 
bit of a witch hunt.
    A lot of the money that was used, that was raised during 
this time period was spent constructing and putting together 
the Labor Environment Alliance, and the major project of the 
Labor Environment Alliance were pink slips that we made to 
defeat the Lieberman and McCain Climate Stewardship Act. And 
so, a lot of the money that was raised during this time period 
was spent putting together a coalition which then funded an 
effort to defeat Senator McCain's legislation on the basis that 
it would raise gasoline prices.
    Now, reasonable people can disagree. I am sure Senator 
McCain believes that his legislation wouldn't raise gas prices. 
We had a different viewpoint, but we worked on that from almost 
all of 2002, putting the Alliance together, and most of 2003.
    Senator Dorgan. And that was funded by the Indian tribes?
    Ms. Federici. It was out of our general support funding.
    Senator Dorgan. Let me ask you, is there any trail of 
evidence that would suggest that the Indian tribes decided that 
was going to be a big issue for them, and they wanted to 
deliver hundreds of thousands of dollars to you for that 
purpose? Any evidence that you have about that?
    Ms. Federici. No, Senator; other than the fact that we have 
a website, www.crea-online.org, with our mission statement, our 
projects, publicly available information, telephone number, e-
mail, et cetera, and nobody ever reached out, none of our 
donors ever reached out to me to either contact me to set up a 
meeting or to say, hey wait 1 minute; you are doing things with 
our funding that is counter to how we would like to see our 
funds used.
    Senator Dorgan. It almost sounds like a fairy tale, doesn't 
it? You get hundreds of thousands, up to $500,000 and the 
people that gave it to you really never reached out to you to 
talk to you about the issues that represented the main elements 
of your organizations.
    That is why I think this is unbelievable, Ms. Federici. We 
have a body of evidence here that suggests you got a 
substantial amount of money from Indian tribes, and then you 
were very busy working with Mr. Abramoff and a close friend at 
Interior, close friend for 10 years. You were very busy moving 
back and forth on a wide range of very controversial Indian 
issues, and now you come here and say, well, I really did not 
do that; that really did not happen.
    Ms. Federici. Senator, I did not say that I really did not 
do that.
    Senator Dorgan. Well, did you do it then?
    Ms. Federici. I told you that I contacted folks at 
Interior, but that the issues were, in my mind, it was Ralph 
Reed is angry, and James Dobson is angry; is anybody paying 
attention to this? Jack represented to me, and I know that 
there are e-mails, because I was actually shown them by your 
staff, where he repeatedly represents to me in writing that he 
does not have any way of talking to people at the Bureau of 
Indian Affairs; that nobody will speak with him. In his framing 
of that issue to me, he said that other people were becoming 
angry and frustrated with his inability to have meetings.
    Now, at the time, hindsight is 20-20, he was the paid 
representative of the Choctaw and the Coushatta and the Saginaw 
Chippewa and lots of very nice Indian tribes. If he presented 
that information to me in writing as he did, and also verbally 
on the phone, why wouldn't I pick up the phone and call the 
Chief Operating Officer and just say, ``hey.'' People who are 
concerned about these issues are frustrated that they can't, 
you know.
    Senator Dorgan. You know what bothers me? We have been 
through hours and hours and hours and hours of hearings. And 
the staff has been through days and days of interviews at this 
point. It is pretty clear that this is one of the most 
disgusting tales of greed and avarice, or perhaps fraud, 
stealing. It is unbelievable what we have uncovered here. It is 
almost sickening to see what we have uncovered, the people 
being bilked and defrauded and so on.
    And you come to our table and say, you know, gosh, this was 
just about friendships, hundreds of thousands of dollars that 
came my way and I didn't really do much. I mean, somehow none 
of this adds up, Ms. Federici. As I said before, this 
committee, in my judgment, has had people testify, and in my 
judgment some of the testimony has been fraudulent. And we need 
to find out who because there are consequences for that.
    And I do not know where this hearing goes from here, what 
we do. I have indicated that I think we have some additional 
witnesses or some additional people to interview; perhaps 
another hearing. But I think at some point, Mr. Chairman, we 
have to reconcile as well some of the inherent conflicts that 
this committee has been told in open hearing because there are 
consequences to providing testimony that is false testimony.
    Ms. Federici. And there very well should be, and I did not 
provide any false testimony to this committee.
    The Chairman. Ms. Federici, do you have anything from the 
IRS that establishes you as a 501(c)(4)?
    Ms. Federici. Can you be more specific, Senator?
    The Chairman. In other words, when you were established as 
a certain category, you receive documentation from the IRS to 
authenticate that. Your file is one.
    Ms. Federici. Our General Counsel on that issue, well, 
actually CREA's General Counsel is Ben Ginsburg. He did our 
incorporation. Those records would be with him at Patton Boggs. 
He has assured me that our filing was done properly.
    The Chairman. Would you provide it for the record, please?
    Ms. Federici. Sure. I will ask Mr. Ginsburg for that 
information.
    The Chairman. No; you can get it. You are the head of the 
organization, Ms. Federici.
    Ms. Federici. Okay.
    Senator Dorgan. Mr. Chairman, I have to be on the floor of 
the Senate in just a few minutes. I wonder if I might just ask 
one additional question.
    The Chairman. Sure.
    Senator Dorgan. Ms. Federici, because of the pattern I see 
here with this 501(c)(4), and you heard that we will be 
submitting at the request of the Finance Committee information 
about activities of (c)(3)s and (c)(4)s that we have uncovered, 
let me ask you, has any of the funding that has come to the 
(c)(4) that you are involved in been used by you personally or 
for political purposes?
    Ms. Federici. Not to my knowledge.
    Senator Dorgan. So you have not used any of that funding 
from your (c)(4)?
    Ms. Federici. I pay myself a salary. We have salaries.
    Senator Dorgan. Beyond a salary, you have not converted 
that to personal use in any way, and you have not used it for 
political purposes?
    Ms. Federici. Well, converted to personal use would be 
salary or reimbursements and things like that. No. I mean, if 
money from CREA goes to me, it is salary or reimbursement.
    Senator Dorgan. The reason I am asking the question is this 
money came to you from Indian tribes.
    Ms. Federici. Right, Senator.
    Senator Dorgan. And we are trying to track the money from 
Indian tribes, who it went to and how it was used.
    Ms. Federici. And I want to actually be as forthcoming as 
possible on that point. We were not a group that received money 
and then hired any of Jack's friends or wrote checks to any of 
Jack's organizations or anything like that.
    The Chairman. We would like to have a yes or no answer.
    Have you ever made any use of the money for purely personal 
expenses for campaign work-related contributions?
    Ms. Federici. Do you mean did I ever write a CREA check for 
a campaign?
    The Chairman. That was the question, or any for purely 
personal expenses?
    Ms. Federici. No; not to the best of my recollection. No.
    The Chairman. Was CREA ever used as a conduit for any 
reasons? In other words, was the CREA ever used to funnel money 
from one source to another?
    Ms. Federici. No, Senator; I mean, not to the best of my 
recollection. I would actually prefer to be answering that 
question ``no.'' You know, and if you have specifics, I could 
probably, if you wanted to know did I ever write checks back to 
the organizations Jack ran, no.
    The Chairman. Any other organization?
    Ms. Federici. No; Senator.
    The Chairman. Thank you very much, Ms. Federici. I am sure 
that there will be more concerning this particular 
relationship, this three-cornered relationship between you and 
the Department of the Interior and Mr. Abramoff.
    Ms. Federici. Senator, I am happy to help in any way I can.
    The Chairman. Well, I thank you.
    This hearing is adjourned.
    [Whereupon at 11:25 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================

[GRAPHIC] [TIFF OMITTED] T4704.001

[GRAPHIC] [TIFF OMITTED] T4704.002

[GRAPHIC] [TIFF OMITTED] T4704.003

[GRAPHIC] [TIFF OMITTED] T4704.004

[GRAPHIC] [TIFF OMITTED] T4704.005

[GRAPHIC] [TIFF OMITTED] T4704.006

[GRAPHIC] [TIFF OMITTED] T4704.007

[GRAPHIC] [TIFF OMITTED] T4704.008

[GRAPHIC] [TIFF OMITTED] T4704.009

[GRAPHIC] [TIFF OMITTED] T4704.010

[GRAPHIC] [TIFF OMITTED] T4704.011

[GRAPHIC] [TIFF OMITTED] T4704.012

[GRAPHIC] [TIFF OMITTED] T4704.013

[GRAPHIC] [TIFF OMITTED] T4704.014

[GRAPHIC] [TIFF OMITTED] T4704.015

[GRAPHIC] [TIFF OMITTED] T4704.016

[GRAPHIC] [TIFF OMITTED] T4704.017

[GRAPHIC] [TIFF OMITTED] T4704.018

[GRAPHIC] [TIFF OMITTED] T4704.019

[GRAPHIC] [TIFF OMITTED] T4704.020

[GRAPHIC] [TIFF OMITTED] T4704.021

[GRAPHIC] [TIFF OMITTED] T4704.022

[GRAPHIC] [TIFF OMITTED] T4704.023

[GRAPHIC] [TIFF OMITTED] T4704.024

[GRAPHIC] [TIFF OMITTED] T4704.025

[GRAPHIC] [TIFF OMITTED] T4704.026

[GRAPHIC] [TIFF OMITTED] T4704.027

[GRAPHIC] [TIFF OMITTED] T4704.028

[GRAPHIC] [TIFF OMITTED] T4704.029

[GRAPHIC] [TIFF OMITTED] T4704.030

[GRAPHIC] [TIFF OMITTED] T4704.031

[GRAPHIC] [TIFF OMITTED] T4704.032

[GRAPHIC] [TIFF OMITTED] T4704.033

[GRAPHIC] [TIFF OMITTED] T4704.034

[GRAPHIC] [TIFF OMITTED] T4704.035

[GRAPHIC] [TIFF OMITTED] T4704.036

[GRAPHIC] [TIFF OMITTED] T4704.037

[GRAPHIC] [TIFF OMITTED] T4704.038

[GRAPHIC] [TIFF OMITTED] T4704.039

[GRAPHIC] [TIFF OMITTED] T4704.040

[GRAPHIC] [TIFF OMITTED] T4704.041

[GRAPHIC] [TIFF OMITTED] T4704.042

[GRAPHIC] [TIFF OMITTED] T4704.043

[GRAPHIC] [TIFF OMITTED] T4704.044

[GRAPHIC] [TIFF OMITTED] T4704.045

[GRAPHIC] [TIFF OMITTED] T4704.046

[GRAPHIC] [TIFF OMITTED] T4704.047

[GRAPHIC] [TIFF OMITTED] T4704.048

[GRAPHIC] [TIFF OMITTED] T4704.049

[GRAPHIC] [TIFF OMITTED] T4704.050

[GRAPHIC] [TIFF OMITTED] T4704.051

[GRAPHIC] [TIFF OMITTED] T4704.052

[GRAPHIC] [TIFF OMITTED] T4704.053

[GRAPHIC] [TIFF OMITTED] T4704.054

[GRAPHIC] [TIFF OMITTED] T4704.055

[GRAPHIC] [TIFF OMITTED] T4704.056

[GRAPHIC] [TIFF OMITTED] T4704.057

[GRAPHIC] [TIFF OMITTED] T4704.058

[GRAPHIC] [TIFF OMITTED] T4704.059

[GRAPHIC] [TIFF OMITTED] T4704.060

[GRAPHIC] [TIFF OMITTED] T4704.061

[GRAPHIC] [TIFF OMITTED] T4704.062

[GRAPHIC] [TIFF OMITTED] T4704.063

[GRAPHIC] [TIFF OMITTED] T4704.064

[GRAPHIC] [TIFF OMITTED] T4704.065

[GRAPHIC] [TIFF OMITTED] T4704.066

[GRAPHIC] [TIFF OMITTED] T4704.067

[GRAPHIC] [TIFF OMITTED] T4704.068

[GRAPHIC] [TIFF OMITTED] T4704.069

[GRAPHIC] [TIFF OMITTED] T4704.070

[GRAPHIC] [TIFF OMITTED] T4704.071

[GRAPHIC] [TIFF OMITTED] T4704.072

[GRAPHIC] [TIFF OMITTED] T4704.073

[GRAPHIC] [TIFF OMITTED] T4704.074

[GRAPHIC] [TIFF OMITTED] T4704.075

[GRAPHIC] [TIFF OMITTED] T4704.076

[GRAPHIC] [TIFF OMITTED] T4704.077

[GRAPHIC] [TIFF OMITTED] T4704.078

[GRAPHIC] [TIFF OMITTED] T4704.079

[GRAPHIC] [TIFF OMITTED] T4704.080

[GRAPHIC] [TIFF OMITTED] T4704.081

[GRAPHIC] [TIFF OMITTED] T4704.082

[GRAPHIC] [TIFF OMITTED] T4704.083

[GRAPHIC] [TIFF OMITTED] T4704.084

[GRAPHIC] [TIFF OMITTED] T4704.085

[GRAPHIC] [TIFF OMITTED] T4704.086

[GRAPHIC] [TIFF OMITTED] T4704.087

[GRAPHIC] [TIFF OMITTED] T4704.088

[GRAPHIC] [TIFF OMITTED] T4704.089

[GRAPHIC] [TIFF OMITTED] T4704.090

[GRAPHIC] [TIFF OMITTED] T4704.091

[GRAPHIC] [TIFF OMITTED] T4704.092

[GRAPHIC] [TIFF OMITTED] T4704.093

[GRAPHIC] [TIFF OMITTED] T4704.094

[GRAPHIC] [TIFF OMITTED] T4704.095

[GRAPHIC] [TIFF OMITTED] T4704.096

[GRAPHIC] [TIFF OMITTED] T4704.097

[GRAPHIC] [TIFF OMITTED] T4704.098

[GRAPHIC] [TIFF OMITTED] T4704.099

[GRAPHIC] [TIFF OMITTED] T4704.100

[GRAPHIC] [TIFF OMITTED] T4704.101

[GRAPHIC] [TIFF OMITTED] T4704.102

[GRAPHIC] [TIFF OMITTED] T4704.103

[GRAPHIC] [TIFF OMITTED] T4704.104

[GRAPHIC] [TIFF OMITTED] T4704.105

[GRAPHIC] [TIFF OMITTED] T4704.106

[GRAPHIC] [TIFF OMITTED] T4704.107

[GRAPHIC] [TIFF OMITTED] T4704.108

[GRAPHIC] [TIFF OMITTED] T4704.109

[GRAPHIC] [TIFF OMITTED] T4704.110

[GRAPHIC] [TIFF OMITTED] T4704.111

[GRAPHIC] [TIFF OMITTED] T4704.112

[GRAPHIC] [TIFF OMITTED] T4704.113

[GRAPHIC] [TIFF OMITTED] T4704.114

[GRAPHIC] [TIFF OMITTED] T4704.115

[GRAPHIC] [TIFF OMITTED] T4704.116

[GRAPHIC] [TIFF OMITTED] T4704.117

[GRAPHIC] [TIFF OMITTED] T4704.118

[GRAPHIC] [TIFF OMITTED] T4704.119

[GRAPHIC] [TIFF OMITTED] T4704.120

[GRAPHIC] [TIFF OMITTED] T4704.121

[GRAPHIC] [TIFF OMITTED] T4704.122

[GRAPHIC] [TIFF OMITTED] T4704.123

                                 <all>

      

</pre></body></html>
